NO.
IN THE
SUPREME COURT OF THE UNITED STATES

CANDICE LUE
Petitioner,
v.
JPMORGAN CHASE & CO., a Delaware Corporation; ALEX KHAVTN, an
individual; FIDELIA SHILLINGFORD, an individual; JOHN VEGA, an individual;
HELEN DUBOWY, an individual; PHILIPPE QUIX, an individual; THOMAS POZ,
an individual; CHRIS LIASIS, an individual; MICHELLE SULLIVAN, an
individual,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Candice Lue, Pro Se Petitioner
certify that the Petition for a Writ of Certiorari contains 8,975 words, excluding the
parts of the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 17, 2019

Candice Lue
Pro Se Petitioner
4122 Bel Vista Court
Lodi, NJ 07644
(973) 340-1231
info@candice lue. com

